No. 19-278
IN THE

Supreme Court of the United States
PFIZER, INC. AND GREENSTONE LLC,
Petitioners,
v.
SUPERIOR COURT OF CALIFORNIA FOR THE COUNTY OF
LOS ANGELES, ET AL.,
Respondents.
On Petition For A Writ Of Certiorari
To The California Court Of Appeal
BRIEF OF THE AMERICAN TORT REFORM
ASSOCIATION, THE NATIONAL
ASSOCIATION OF MANUFACTURERS, THE
PHARMACEUTICAL RESEARCH AND
MANUFACTURERS OF AMERICA AND THE
PRODUCT LIABILITY ADVISORY COUNCIL
AS AMICI CURIAE IN SUPPORT OF
PETITIONERS
JOHN H. BEISNER
Counsel of Record
JESSICA D. MILLER
JORDAN M. SCHWARTZ
ZACHARY W. MARTIN
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-7000
John.Beisner@skadden.com
Additional counsel listed on inside cover

Additional counsel
H. SHERMAN JOYCE
LAUREN S. JARRELL
AMERICAN TORT
REFORM ASSOCIATION
1101 Connecticut Avenue,
N.W.
Suite 400
Washington, D.C.
20036
(202) 682-1168
PETER TOLSDORF
MANUFACTURERS’
CENTER FOR LEGAL
ACTION
733 10th Street, N.W.
Suite 700
Washington, D.C. 20001
(202) 637-3100

JAMES C. STANSEL
MELISSA B. KIMMEL
THE PHARMACEUTICAL
RESEARCH AND
MANUFACTURERS OF
AMERICA
950 F Street, N.W.
Washington, D.C. 20004
(202) 835-3400
ALAN J. LAZARUS
DRINKER BIDDLE & REATH LLP
Four Embarcadero Center 27th
Floor
San Francisco, CA 94111-4180
(415) 591-7551

Attorneys for Amici Curiae The American Tort Reform Association, The National Association of Manufacturers, The
Pharmaceutical Research and Manufacturers of America and
the Product Liability Advisory Council

i
TABLE OF CONTENTS
Page
STATEMENT OF INTEREST .................................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ..................................................... 3
ARGUMENT ................................................................ 7
I.

THE COURT SHOULD GRANT
THE PETITION AND REVERSE
BECAUSE THE CALIFORNIA
SUPREME COURT’S REFUSAL
TO REVIEW SIGNALS
APPROVAL OF THE TRIAL
COURT’S ERRONEOUS
RULING ON AN IMPORTANT,
RECURRING ISSUE OF
FEDERAL LAW. .................................... 7

II.

THE COURT SHOULD GRANT
THE PETITION AND REVERSE
BECAUSE THE CALIFORNIA
COURTS’ APPROACH TO
FORFEITURE WOULD HAVE
ADVERSE CONSEQUENCES
FOR THE CIVIL JUSTICE
SYSTEM. .............................................. 13

CONCLUSION .......................................................... 20

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
In re “Agent Orange” Product Liability
Litigation,
818 F.2d 145 (2d Cir. 1987) ...................... 11, 17
Bank of United States v. Deveaux,
9 U.S. (5 Cranch) 61 (1809) ............................ 19
Bristol-Myers Squibb Co. v. Superior Court of
California,
137 S. Ct. 1773 (2017) ............................. 3, 4, 19
Employers Reinsurance Corp. v. Bryant,
299 U.S. 374 (1937) ........................................... 8
Flowers v. Aetna Casualty & Surety Co.,
163 F.2d 411 (6th Cir. 1947) ......................... 8, 9
In re FMC Corp. Patent Litigation,
422 F. Supp. 1163 (J.P.M.L. 1976) ................. 11
Gelboim v. Bank of America Corp.,
574 U.S. 405, 135 S. Ct. 897 (2015) ................ 15
Goldey v. Morning News of New Haven,
156 U.S. 518 (1895) ........................................... 8
Guaranty Trust Co. of New York v. York,
326 U.S. 99 (1945) ........................................... 19

iii
Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d Cir. 1999) .......................... 9, 10
Morris & Co. v. Skandinavia Insurance Co.,
279 U.S. 405 (1929) ........................................... 8
Nielsen v. Merck & Co.,
No. C07-00076 MJJ, 2007 U.S. Dist.
LEXIS 21250 (N.D. Cal. Mar. 15, 2007) ........ 15
In re Phenylpropanolamine (PPA) Products
Liability Litigation,
MDL No. 1407, 2004 U.S. Dist. LEXIS
18937 (W.D. Wash. Sept. 3, 2004) ............ 15, 17
In re Proton-Pump Inhibitor Products Liability
Litigation
261 F. Supp. 3d 1351 (J.P.M.L. 2017) ............ 16
R. H. Hassler, Inc. v. Shaw,
271 U.S. 195 (1926) ........................................... 8
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999) ..................... 5, 7, 12, 13, 18
Steel Co. v. Citizens for a Better Environment,
523 U.S. 83 (1998) ........................................... 17
Walden v. Fiore,
571 U.S. 277 (2014) ..................................... 4, 16

iv
STATE CASES
Coordination Proceeding Special Title Rule
3.550 v. Janssen Pharmaceuticals, Inc.,
No. JCCP 4775, 2018 Cal. Super. LEXIS
3259 (Aug. 1, 2018) ........................................... 4
Coordination Proceeding Special Title Rule
3.550c v. DePuy Orthopaedics, Inc.,
No. CGC-11-509600, 2017 Cal. Super.
LEXIS 551 (Nov. 1, 2017) ................................. 4
People ex rel. Becerra v. Native Wholesale
Supply Co.,
37 Cal. App. 5th 73 (2019) ................................ 4
CONSTITUTION
U.S. Const. art. III, § 2 .............................................. 19
FEDERAL STATUTES
28 U.S.C. § 1332 ........................................................ 19
28 U.S.C. § 1407(a) ................................................ 6, 15
OTHER AUTHORITIES
Manual for Complex Litigation (Fourth) §
20.131 (2004) ................................................... 15
Manual for Complex Litigation (Fourth) §
22.36 (2004) ............................................... 11, 16

v
Victor Marrero, The Cost of Rules, The Rule of
Costs,
37 Cardozo L. Rev. 1599 (2016) ...................... 14
Joe Palazzolo, In Federal Courts, the Civil
Cases Pile Up, Wall Street J., Apr. 6,
2015 ................................................................. 14

STATEMENT OF INTEREST1
The American Tort Reform Association (“ATRA”)
is the only national organization exclusively dedicated to reforming the civil justice system.
The
organization is a nationwide network of state-based
liability reform coalitions backed by 135,000 grassroots supporters. ATRA’s membership is diverse and
includes nonprofits, small and large companies, as
well as state and national trade, business and professional associations.
The National Association of Manufacturers
(“NAM”) is the largest manufacturing association in
the United States, representing small and large
manufacturers in every industrial sector and in all 50
states. Manufacturing employs more than 12 million
men and women, contributes $2.25 trillion to the U.S.
economy annually, has the largest economic impact
of any major sector and accounts for more than threequarters of all private-sector research and development in the nation. The NAM is the voice of the
1 Pursuant to Supreme Court Rule 37.6, counsel for amici curiae states that no counsel for a party authored this brief in
whole or in part, and no party or counsel for a party made a
monetary contribution intended to fund the preparation or
submission of this brief. No person other than amici curiae,
their members, or their counsel made a monetary contribution
to the preparation or submission of this brief. Pursuant to Supreme Court Rule 37.2, amici curiae state that petitioners and
respondents have consented to the filing of this brief and that
amici curiae timely notified counsel of record of their intent to
file this brief.

Amici have also filed a brief in support of the related petition
for certiorari to the United States Court of Appeals for the
Ninth Circuit, seeking review of the federal courts’ determination that they lacked subject matter jurisdiction over these
cases. See Pfizer Inc. v. Adamyan, No. 18-1578.

2
manufacturing community and the leading advocate
for a policy agenda that helps manufacturers compete in the global economy and create jobs across the
United States.
The Pharmaceutical Research and Manufacturers
of America (“PhRMA”) is a voluntary, nonprofit association of the country’s leading research-based
pharmaceutical and biotechnology companies.
PhRMA’s mission is to advocate public policies encouraging the discovery of life-saving and lifeenhancing new medicines. PhRMA’s member companies are devoted to inventing medicines that allow
patients to live longer, healthier, and more productive lives, and have led the way in the search for new
cures.
The Product Liability Advisory Council (“PLAC”)
is a non-profit association with more than 80 corporate members representing a broad cross-section of
American and international product manufacturers.
These companies seek to contribute to the improvement and reform of law in the United States and
elsewhere, with emphasis on the law governing the
liability of manufacturers of products. PLAC’s perspective is derived from the experiences of a
corporate membership that spans a diverse group of
industries in various facets of the manufacturing sector. In addition, several hundred of the leading
product-liability defense attorneys in the country are
sustaining (non-voting) members of PLAC.
ATRA, the NAM, PhRMA and PLAC have a
strong interest in this case because their members
are increasingly forced to defend against suits
brought in states to which neither the plaintiffs, their
claims nor the defendants have any meaningful con-

3
nection. These suits are frequently brought in a
handful of fora well-known for plaintiff-friendly procedural law, judges and jury pools. This Court’s
landmark personal-jurisdiction ruling in BristolMyers Squibb Co. v. Superior Court of California, 137
S. Ct. 1773 (2017), has mitigated some of this abuse.
However, amici remain concerned that the harsh forfeiture rule manufactured by the California Superior
Court, summarily endorsed by the California Court of
Appeal and implicitly countenanced by the California
Supreme Court’s failure to grant review will spur
further forum-shopping and provide California (and
potentially other state) courts with a clear blueprint
for evading the dictates of Bristol-Myers. In addition,
the participation of amici is desirable because their
unique perspective and expertise can help elucidate
the profound real-world public-policy consequences of
the novel forfeiture rule that is the subject of the petition.
INTRODUCTION AND SUMMARY OF
ARGUMENT
The Court should grant the petition and reverse,
or summarily reverse, the California courts’ rulings
in this proceeding, which improperly sanctioned the
exercise of personal jurisdiction over New York-based
Pfizer 2 with respect to nearly 4,000 cases, even
though the plaintiffs’ claims arose outside California.
As the California Superior Court itself recognized,
hauling the out-of-state pharmaceutical company into court to defend against claims in California under
these circumstances would clearly flout “the principles of Bristol-Myers,” Pet. App. 8, which made clear
Petitioners Pfizer Inc. and Greenstone LLC are referred to
as Pfizer, collectively, in the petition. Amici do the same here.
2

4
that state courts cannot exercise personal jurisdiction
over out-of-state defendants in these circumstances.
137 S. Ct. at 1782. Nonetheless, the Superior Court
chose to evade the clear limitations established by
this Court in that seminal decision by approving a
rule of forfeiture, purportedly fashioned under federal law, that is unmistakably at odds with more than
a century of precedent from this Court and others.
This evasion of precedent adds to a growing list of
California rulings that have sought to circumvent the
clear command of Bristol-Myers.3
The present case is a strong candidate for summary reversal, or at the very least for consideration
on the merits, for two reasons.
First, the petition presents this Court with a
prime opportunity to swiftly correct a patently erroneous interpretation of federal law.
As amply
demonstrated in the petition, the so-called “federal”
forfeiture rule applied by the courts below is contrary
See, e.g., People ex rel. Becerra v. Native Wholesale Supply
Co., 37 Cal. App. 5th 73, 84 (2019) (finding 2011 personal jurisdiction ruling to be law of the case notwithstanding intervening
decisions in Bristol-Myers and Walden v. Fiore, 571 U.S. 277
(2014)); Coordination Proceeding Special Title Rule 3.550 v.
Janssen Pharm., Inc., No. JCCP 4775, 2018 Cal. Super. LEXIS
3259, at *21-36 (Aug. 1, 2018) (finding personal jurisdiction arguments forfeited for failure to raise them prior to Bristol-Myers,
notwithstanding acknowledgement that such arguments would
have been futile under then-existing California precedent); Coordination Proceeding Special Title Rule 3.550c v. DePuy
Orthopaedics, Inc., No. CGC-11-509600, 2017 Cal. Super.
LEXIS 551, at *11 (Nov. 1, 2017) (exercising personal jurisdiction over non-California-based defendants with respect to
claims arising out of injury suffered in Connecticut by a Connecticut resident allegedly caused by a product manufactured in
the United Kingdom by an Indiana corporation).
3

5
to more than a century of precedent from both this
Court and other federal courts holding that a defendant does not forfeit a personal jurisdiction defense by
removing a case to federal court and litigating subject matter jurisdiction first. By holding to the
contrary, the courts below not only contravened those
legions of authorities, but also resurrected a mirror
image of the “unyielding jurisdictional hierarchy”
squarely rejected in Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574, 578 (1999). The clear import of Ruhrgas is that there is no inflexible standard governing
the order in which jurisdictional motions are made
and decided. If left undisturbed, the California
courts’ rulings would effectively nullify Ruhrgas and
compel defendants in California’s courts to litigate
personal jurisdiction before subject matter jurisdiction in every removed case, lest they be later held to
have forfeited the former defense.
Second, the erroneous forfeiture standard applied
by the California courts below would also have serious ramifications for the American civil justice
system. Most notably, the strict requirement that
defendants litigate personal jurisdiction prior to, or
at the latest simultaneously with, questions of subject matter jurisdiction would unnecessarily burden
the court system and unfairly disadvantage out-ofstate defendants. The rule applied by the California
courts is grossly inefficient and could precipitate
needless jurisdictional motion practice given that an
out-of-state defendant’s decision to assert a personal
jurisdiction defense in the first place might largely
turn on whether it prevails on the logically antecedent question of federal subject matter jurisdiction.
The inefficiencies wrought by the California courts’
approach to forfeiture would be especially acute in

6
the context of multidistrict litigation (“MDL”) proceedings, in which MDL courts have personal
jurisdiction to oversee cases during pre-trial proceedings regardless of the jurisdiction in which the claims
arose. Personal jurisdiction questions tend to be
case-specific and thus may not be generally applicable to the broader universe of cases pending in an
MDL proceeding, often making it more efficient to
address other, cross-cutting issues first. Nonetheless,
the rule embraced by the California courts would
force MDL judges to prioritize discrete and casespecific personal jurisdiction issues over more broadly applicable questions such as subject matter
jurisdiction, preemption, the admissibility of expert
evidence and the appropriate management of common discovery, undermining the very purpose of
multidistrict litigation, which is to “promote the just
and efficient” resolution of claims. 28 U.S.C. § 1407(a)
(emphasis added).
In addition, the forfeiture rule endorsed by the
California courts in this proceeding would unfairly
prejudice defendants by requiring that, in every case,
they litigate personal jurisdiction before (or, at the
latest, in tandem with) subject matter jurisdiction.
This is bad policy because a defendant’s decision to
assert a personal jurisdiction defense may well be informed by whether it will have to defend against the
claims at issue in a state or federal forum. Nonetheless, the forfeiture rule in question would compel
defendants (like amici’s members) to decide whether
to raise a personal jurisdiction defense before they
know the forum in which they would be consenting to
litigate should they decline to pursue it.

7
ARGUMENT
I.
THE COURT SHOULD GRANT THE
PETITION AND REVERSE BECAUSE
THE CALIFORNIA SUPREME COURT’S
REFUSAL TO REVIEW SIGNALS
APPROVAL OF THE TRIAL COURT’S
ERRONEOUS RULING ON AN
IMPORTANT, RECURRING ISSUE OF
FEDERAL LAW.
The Court should grant the petition because the
conclusion reached by the California trial court,
summarily affirmed by the Court of Appeal and implicitly approved by the California Supreme Court’s
failure to grant review – i.e., that petitioners forfeited
their personal jurisdiction defense in state court by
litigating the question of subject matter jurisdiction
in federal court – contravenes well-established federal law. As petitioners explain, this conclusion runs
directly contrary to the rulings of this Court and other federal courts, and it would eviscerate the
flexibility for courts and parties “to choose among
threshold grounds for denying [an] audience to a case
on the merits.” Ruhrgas, 526 U.S. at 585.
First, and as detailed in the petition, in an effort
to circumvent the straightforward holding of this
Court’s decision in Bristol-Myers, the California
courts embraced a “federal” rule of forfeiture that
cannot be squared with any federal authority addressing the question of waiver under analogous
circumstances.
The Superior Court acknowledged that the exercise of personal jurisdiction in California over New
York-based Pfizer with respect to thousands of cases
with no connection to California would violate “the

8
principles of Bristol-Myers.” Pet. App. 8. It nonetheless reasoned that in light of the extensive federal
litigation in the MDL proceeding, the petitioners
“had more than enough time to litigate their defense
of lack of personal jurisdiction.” Pet. App. 12. But
that time was primarily spent removing the case and
subsequently defending the propriety of that removal
– i.e., whether the MDL court had subject matter jurisdiction.
As this Court has repeatedly reiterated for more
than a century, “the theory that a defendant, by filing . . . a petition for removal . . . necessarily waives
the right to insist . . . the state court had not acquired jurisdiction [over] his person, is inconsistent
with the terms, as well as with the spirit” of the removal statute. Goldey v. Morning News of New
Haven, 156 U.S. 518, 523 (1895); see also, e.g., Emp’rs
Reinsurance Corp. v. Bryant, 299 U.S. 374, 376 (1937)
(“[o]btaining . . . removal from the state court into the
federal court did not operate as a general appearance” and the court “plainly was without personal
jurisdiction”); Morris & Co. v. Skandinavia Ins. Co.,
279 U.S. 405, 409 (1929) (rejecting contention that
“by removal of the case to the federal court, objection
to jurisdiction over the person” had been forfeited).
The federal courts have uniformly held that this rudimentary principle applies even if the defendant
extensively litigates subject matter jurisdiction, or
even in certain circumstances the merits, following
removal. See, e.g., R. H. Hassler, Inc. v. Shaw, 271
U.S. 195, 199-200 (1926) (removal followed by litigation on the merits up through trial did not forfeit
personal jurisdiction defense); Flowers v. Aetna Cas.
& Sur. Co., 163 F.2d 411, 415 (6th Cir. 1947).

9
For example, in Flowers, subject matter jurisdiction was litigated for years following removal,
eventually reaching all the way to this Court. See
163 F.2d at 413. Nevertheless, the circuit court, relying on the principle that removal does not waive a
challenge to personal jurisdiction, concluded that defendants retained the right to challenge “the validity
of jurisdiction over the person” once subject matter
jurisdiction had finally been resolved. Id. at 415. As
the court of appeals explained, “after removal the
party securing it has the same right to invoke the decision of the United States Court on the validity of
jurisdiction over the person of the defendants that he
has to ask its judgment on the merits.” Id.
The same principle should apply in this case,
which even the California trial court recognized is
governed by “federal procedural law.” Pet. App. 8.
The fact that petitioners removed this case, and then
engaged in protracted litigation attempting to establish subject matter jurisdiction, cannot, under the
federal precedent described above, preclude them
from now challenging personal jurisdiction. Rather,
only by fashioning an entirely new rule out of whole
cloth could the California courts find a way around
the “principles of Bristol-Myers.” Pet. App. 8.
The primary case on which the courts below relied,
Hamilton v. Atlas Turner, Inc., 197 F.3d 58 (2d Cir.
1999), is not to the contrary and offers no support for
their position. The California courts erroneously
construed Hamilton to stand for the sweeping proposition that personal jurisdiction objections can be
forfeited whenever the defendant could have filed a
motion challenging personal jurisdiction at an earlier
time after removal. Pet. App. 9-11. But Hamilton
clearly states that removal coupled with “the passage

10
of time alone is generally not sufficient to indicate
forfeiture of a procedural right.” 197 F.3d at 61 (emphasis added). Rather, that case turned on at least
two additional facts: (i) the removing defendant engaged in case-specific “merits discovery,” including
taking the deposition of the individual plaintiff; and
(ii) the defendant did not “raise the personal jurisdiction issue [until] the eve of trial.” Id. at 61, 62.
Here, by contrast, no such case-specific “merits”
discovery was conducted in these cases, which remained stayed during the entire time they were
pending in federal court. Nor did Pfizer – which asserted the personal jurisdiction defense in its
answers – wait until the eve of trial to lodge its objection. Simply put, the facts of these cases bear no
resemblance to those at issue in Hamilton.
The California courts nonetheless attempted to
pigeonhole the disparate facts of these cases into the
unique factual scenario presented in Hamilton by
concluding that Pfizer had “acceded to the jurisdiction of the [California] court[s] by seeking a ruling on
the merits of the California cases before the [MDL]
court.” Pet. App. 12-13. In so doing, they misconstrued both the record of these cases, and, more
importantly, the pertinent MDL context in which
that record developed. Id. Although Pfizer did file
an omnibus motion for summary judgment, it expressly acknowledged the possibility that the MDL
court would “defer[] ruling on summary judgment” in
the California cases and merely reserved its right to
renew its arguments at a later time after a finding of
subject matter jurisdiction in these cases. Pet. App.
52. As the petition cogently explains, such a conditional waiver of personal jurisdiction is hardly novel
and cannot be construed as abrogating a defendant’s

11
rights where – as here – the condition (i.e., a finding
of subject matter jurisdiction) went unfulfilled. Pet.
24.
Such a conclusion is all the more warranted in
light of the MDL context in which Pfizer’s omnibus
motion for summary judgment was filed. The multidistrict litigation statute “authoriz[es] the federal
[MDL] court[] to exercise nationwide personal jurisdiction” “over pretrial proceedings,” such as motions
for summary judgment. In re “Agent Orange” Prod.
Liab. Litig., 818 F.2d 145, 163 (2d Cir. 1987) (emphasis added) (citation omitted); see also Manual for
Complex Litigation (Fourth) § 22.36 (2004) (noting
MDL court’s authority to enter summary judgment
but not to try cases). While that power technically
derives from the authority “that the transferor judge
would have had in the absence of transfer,” In re
“Agent Orange”, 818 F.2d at 163 (quoting In re FMC
Corp. Patent Litig., 422 F. Supp. 1163, 1165 (J.P.M.L.
1976) (per curiam)), to insist that a party consent to
the personal jurisdiction of the transferor forum by
dint of conducting omnibus pretrial proceedings in
the transferee MDL court would be to elevate form
over substance in the extreme. After all, the purpose
of an MDL proceeding is to resolve cross-cutting issues that apply equally to all cases regardless of the
forum that ultimately has jurisdiction to try them.
Personal jurisdiction does not truly become relevant
until the litigation reaches the case-specific stage,
frequently after remand to the transferor courts. Illustrating the point, had these California cases been
filed in a proper forum, the vast majority of them
would still have ended up before the same MDL
judge, at the same time.

12
In short, the applicable federal precedent governing forfeiture, the underlying record and the unique
MDL posture that characterized these California cases for several years all make clear that the California
courts’ finding of forfeiture was patently erroneous.
Second, the forfeiture rule created by the California courts would impose a strict hierarchy in which
personal jurisdiction must be litigated before (or, at
the latest, simultaneously with) subject matter jurisdiction in every case: the same inflexible result this
Court emphatically rejected in Ruhrgas. In Ruhrgas,
the court below had determined that “district courts
must decide issues of subject-matter jurisdiction first,
reaching issues of personal jurisdiction ‘only if subject-matter jurisdiction is found to exist.’” 526 U.S.
at 582 (citation omitted). In reversing that determination, this Court held that both subject matter
jurisdiction and personal jurisdiction are “‘essential
element[s] of . . . jurisdiction . . .’ without which the
court is ‘powerless to proceed to an adjudication’” of
the merits. Id. at 584 (citation omitted). Therefore,
neither is more “fundamental,” id. (citation omitted),
than the other, and no “unyielding jurisdictional hierarchy” compels consideration of one before the
other, id. at 578. Still, despite the absence of any
hard-and-fast hierarchy, this Court observed that, in
most cases, federal courts should still resolve subject
matter jurisdiction before turning to personal jurisdiction, out of “both expedition and sensitivity to
state courts[].” Id. at 587-88.
The forfeiture rule sanctioned by the California
courts below would produce a mirror image of the
“unyielding . . . hierarchy” rejected in Ruhrgas. By
finding that Pfizer had forfeited its personal jurisdiction defense through federal court litigation

13
overwhelmingly dedicated to the question of subject
matter jurisdiction, the courts below effectively required Pfizer to litigate personal jurisdiction before –
or simultaneously with – subject matter jurisdiction,
on pain of forfeiting the right to raise the former.
This is entirely contrary to the flexible scheme authorized by Ruhrgas and its progeny.
Indeed,
dictating that personal jurisdiction be litigated before
subject matter jurisdiction as a matter of course
makes even less sense than the opposite requirement
that the Court rejected in Ruhrgas. While that case
evinced a flexible approach to the sequencing of jurisdictional questions, it still acknowledged that
courts should usually address subject matter jurisdiction first.
In sum, in an effort to evade Bristol-Myers, the
California courts flouted well-settled federal law, and
turned the flexible jurisdictional inquiry this Court
has embraced on its head. For this reason alone, the
petition should be granted.
II.
THE COURT SHOULD GRANT THE
PETITION AND REVERSE BECAUSE
THE CALIFORNIA COURTS’ APPROACH
TO FORFEITURE WOULD HAVE
ADVERSE CONSEQUENCES FOR THE
CIVIL JUSTICE SYSTEM.
The Court should also grant the petition because
the forfeiture rule fashioned by the California courts
is contrary to sound public policy. If allowed to stand,
such a rule would undermine the efficient management of civil litigation, particularly in MDL
proceedings, and would prejudice defendants.
First, requiring defendants to litigate personal jurisdiction at the outset of a civil lawsuit, prior to or

14
simultaneously with subject matter jurisdiction,
would result in unnecessary and inefficient delay.
The ubiquitous nature of civil litigation has created a
backlog of civil lawsuits, leading to a “[r]ecord number of pending actions” and delays across the country.
Joe Palazzolo, In Federal Courts, the Civil Cases Pile
Up, Wall Street J., Apr. 6, 2015 (“Civil suits . . . are
piling up . . . leading to long delays in cases . . . .”).
As legal commentators have lamented, unnecessary
motion practice has further increased litigation costs
and delays. See Victor Marrero, The Cost of Rules,
The Rule of Costs, 37 Cardozo L. Rev. 1599, 1602,
1632 (2016) (noting that “litigation abuse, cost, and
delay has arisen in recent years” and attributing a
large part of it to “premature, avoidable, unproductive, or otherwise unnecessary” motion practice).
The California courts’ approach to forfeiture
threatens to exacerbate this dynamic by spawning a
multiplicity of personal jurisdiction motions in courts
across the country that might end up being for
naught. After all, and as elaborated infra, the decision to press a personal jurisdiction defense
frequently turns on whether the claims at issue will
proceed in state or federal court – a reality laid bare
by the instant petition. See Pet. 24 (Pfizer stated
“prospectively that it would waive its personal jurisdiction objections on the condition that subject
matter jurisdiction were established”). In other
words, resolving the propriety of a defendant’s removal of a lawsuit to federal court in its favor often
obviates the need for protracted and expensive personal jurisdiction motion practice in the first place.
However, under the stringent forfeiture rule developed by the California courts, parties and courts
would have to expend time and resources on personal

15
jurisdiction questions as soon as a case is removed –
irrespective of the implications a ruling on subject
matter jurisdiction would have for the logically subsequent question of whether to maintain a personal
jurisdiction challenge. Such a requirement would
unnecessarily increase litigation costs and encumber
an already over-burdened court system.
Needless to say, these costs and burdens would be
especially debilitating in MDL proceedings, which
Congress expressly established to “promote the just
and efficient” resolution of complex litigation. 28
U.S.C. § 1407(a) (emphasis added). As this Court has
recognized, multidistrict litigation is intended to
“save the time and effort of the parties, the attorneys . . . and the courts.” Gelboim v. Bank of Am.
Corp., 574 U.S. 405, 135 S. Ct. 897, 903 (2015) (quoting Manual for Complex Litigation (Fourth) § 20.131).
In order to accomplish this task, the MDL court is
supposed to expeditiously adjudicate “matters common among [the] cases.” In re Phenylpropanolamine
(PPA) Prods. Liab. Litig., MDL No. 1407, 2004 U.S.
Dist. LEXIS 18937, at *10 (W.D. Wash. Sept. 3, 2004).
Such matters – for example, whether a plaintiff has
fraudulently joined a non-diverse defendant to defeat
diversity – often overlap with other subject matter
jurisdiction issues raised in pending motions to remand in an MDL proceeding. See Nielsen v. Merck &
Co., No. C07-00076 MJJ, 2007 U.S. Dist. LEXIS
21250, at *5 (N.D. Cal. Mar. 15, 2007) (MDL court
should resolve motion to remand because “there are
presently dozens of cases already in the MDL originating from California . . . that involve the same
jurisdictional issue -- the fraudulent joinder of these
same pharmaceutical distributor defendants”). As a
result, an MDL court should, in particular, resolve

16
issues of subject matter jurisdiction “promptly” to
avoid “unnecessary and prejudicial delay.” Manual
for Complex Litigation (Fourth) § 22.36. The same is
true with respect to various other cross-cutting pretrial motions, the resolution of which would advance
– rather than hinder – the course of an MDL proceeding. See In re Proton-Pump Inhibitor Prods. Liab.
Litig., 261 F. Supp. 3d 1351, 1354 (J.P.M.L. 2017)
(“Centralization will facilitate a uniform and efficient
pretrial approach to this litigation, eliminate duplicative discovery, prevent inconsistent rulings on
Daubert and other pretrial issues, and conserve the
resources of the parties, their counsel, and the judiciary.”).
Requiring defendants – and therefore MDL courts
– to prioritize the adjudication of personal jurisdiction instead would undermine the efficiency that
multidistrict litigation is intended to promote. MDL
proceedings can frequently include hundreds, if not
thousands, of individual cases, transferred from dozens of, if not all 50, forum states. Under the
California courts’ forfeiture rule, defendants would
be required to flood MDL courts with every conceivable personal jurisdiction challenge in all of these
cases as soon as possible, lest they be prevented from
raising the issue later.4 Such motions, which would
implicate case-specific issues about the nexus between the particular “defendant, the forum, and the
litigation,” Walden v. Fiore, 571 U.S. 277, 284 (2014)
This profound impact on MDL proceedings would occur
even if California state court remains the only jurisdiction to
follow the purportedly “federal” rule of forfeiture crafted below.
California is the most populous state and a popular venue for
filing cases that are ultimately centralized in federal MDL proceedings.
4

17
(citation omitted), would crowd out questions of subject matter jurisdiction, as well as other cross-cutting
issues such as preemption, the admissibility of expert
evidence under Daubert and most importantly, the
oversight of common discovery. These issues would
all be left waiting to be addressed while the parties
briefed, and the court adjudicated, endless personal
jurisdiction motions of little pertinence to the broader
claims pool that would only “slow down the MDL process.” In re PPA, 2004 U.S. Dist. LEXIS 18937, at
*10-12 (“[T]he motions require a case-specific analysis not appropriate for an MDL court . . . .”) (citation
omitted).
Such an approach is neither required by law nor
likely to have any practical benefits. Whereas an
MDL court must assure itself of subject matter jurisdiction before taking any binding action on the
merits in a given case, see Steel Co. v. Citizens for a
Better Environment, 523 U.S. 83, 94-95 (1998), the
issue of personal jurisdiction remains essentially irrelevant for as long as a case is pending in an MDL
proceeding. As already discussed, the MDL court has,
by statute, nationwide personal jurisdiction over the
pretrial matters that it adjudicates. See In re “Agent
Orange”, 818 F.2d at 163. The MDL process could
not function otherwise. And the question whether a
particular transferor court had personal jurisdiction
over a particular case is only of academic concern
with respect to pretrial proceedings, since all federal
cases are heard in the same MDL court, regardless of
the forum in which a case was initially filed or to
which it was initially removed. Because the rule
crafted below would, nevertheless, push this issue to
the forefront of MDL litigation – thereby delaying the

18
resolution of far more generally applicable pretrial
motions – this Court should reject it.
Second, the forfeiture rule applied below would
also unfairly prejudice defendants on multiple levels.
As a threshold matter, the rule would hamper defendants’ ability to effectively litigate their position
on subject matter jurisdiction and personal jurisdiction. With respect to any lawsuit for which there is a
remotely colorable personal jurisdiction defense, the
defendant would have no choice but to move to dismiss the action upon removing it to federal court. In
many of those cases, the plaintiffs will have already
filed motions to remand challenging the defendant’s
theory of removal. Given limited time and resources,
the defendants in those cases would then face a Hobson’s choice: prioritize their personal jurisdiction
briefing at the expense of their subject matter jurisdiction briefing or vice versa. Neither choice is fair or
practical in light of the fundamental jurisdictional
issues that would be raised in those briefs. In short,
the simultaneous and disjointed nature of the jurisdictional motion practice envisioned by the California
courts’ approach to forfeiture would make it all the
more difficult for defendants to effectively press their
jurisdictional arguments.
More fundamentally, however, the rigid rule employed below would deny defendants the opportunity
to make an informed and meaningful choice with regard to a constitutionally-based defense. Personal
jurisdiction is “a matter of” defendants’ “individual
liberty.” Ruhrgas, 526 U.S. at 584 (citation omitted).
Like any other individual right, a defendant “may insist that the limitation be observed, or [it] may forgo
that right, effectively consenting to the court’s exercise of adjudicatory authority.”
Id.
But this

19
supposed choice is rendered entirely illusory when a
defendant does not know the “adjudicatory authority”
to which it is purportedly deciding to “consent[].”
A rule like the one imposed by the California
courts requiring defendants to file a personal jurisdiction motion either before or simultaneously with
litigating subject matter jurisdiction would have precisely that effect. Defendants would have to decide
whether to consent to trial in a particular forum
state without knowing whether the case is to be adjudicated by the federal or state courts of that forum.
The difference could well be significant. For example,
and as the conditional waiver proffered by Pfizer illustrates, it is entirely possible that an out-of-state
defendant would be more willing to forgo a personal
jurisdiction defense if federal subject matter jurisdiction had been established than if it had not. This
reality is well-established in federal jurisprudence;
indeed, both the Constitution, see U.S. Const. art. III,
§ 2, and the U.S. Code, see 28 U.S.C. § 1332, assume
that federal courts will be free from bias against outof-state defendants that might affect the state courts
of the same forum. See, e.g., Guaranty Tr. Co. of N.Y.
v. York, 326 U.S. 99, 110-11 (1945) (citing Bank of
U.S. v. Deveaux, 9 U.S. (5 Cranch) 61 (1809)) (“Diversity jurisdiction is founded on assurance to nonresident litigants of courts free from susceptibility to
potential local bias.”). Yet, under the California
courts’ rule, a defendant that declines to immediately
challenge personal jurisdiction because it expects the
federal court ultimately to exercise subject matter
jurisdiction would be required, if the federal court declines jurisdiction, to “submit[] to the coercive power
of a State [court] that may have little legitimate in-

20
terest in the claims in question.” Bristol-Myers, 137
S. Ct. at 1780 (emphasis added).
In sum, a personal jurisdiction defense protects
“the individual liberty” of defendants, and before they
raise it, they are entitled to know, and weigh, the
consequences of doing so. The forfeiture rule fashioned in the California courts would abrogate that
right and, for this reason too, the Court should grant
the petition and reverse.
CONCLUSION
For the foregoing reasons, and those stated in the
petition, the petition for writ of certiorari should be
granted.
Respectfully submitted,
H. SHERMAN JOYCE
LAUREN S. JARRELL
AMERICAN TORT
REFORM
ASSOCIATION
1101 Connecticut
Avenue, N.W.
Suite 400
Washington, D.C. 20036
(202) 682-1168

JOHN H. BEISNER
Counsel of Record
JESSICA D. MILLER
JORDAN M. SCHWARTZ
ZACHARY W. MARTIN
SKADDEN, ARPS,
SLATE, MEAGHER &
FLOM LLP
1440 New York Avenue,
N.W.
Washington, D.C. 20005
(202) 371-7000

21
PETER TOLSDORF
JAMES C. STANSEL
MANUFACTURERS’ MELISSA B. KIMMEL
CENTER FOR LEGAL THE PHARMACEUTICAL
ACTION
RESEARCH AND
733 10th Street, N.W., MANUFACTURERS OF
Suite 700
AMERICA
Washington, D.C. 20001950 F Street, N.W.
(202) 637-3100
Washington, D.C. 20004
(202) 835-3400
ALAN J. LAZARUS
DRINKER BIDDLE &
REATH LLP
Four Embarcadero Center,
27th Floor
San Francisco, CA 941114180
(415) 591-7551
Attorneys for Amici Curiae The American Tort Reform Association, The National Association of
Manufacturers, The Pharmaceutical Research and
Manufacturers of America and the Product Liability
Advisory Council
October 3, 2019

